HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, Anthem Blue Cross and Blue Shield of Connecticut, (A-07-97-02500)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Anthem Blue Cross
and Blue Shield of Connecticut," (A-07-97- 02500)
March 24, 1998
Complete Text of Report is available in PDF format
(168 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Medicare Contractor's Pension
Segmentation, Anthem Blue Cross and Blue Shield of Connecticut (Connecticut).
Our review showed that Connecticut overstated Medicare segment assets as of
January 1, 1996 by $122,548. We recommend that Connecticut decrease the January
1, 1996 assets of the Medicare segment by $122,548.